HHS/OIG, Audit - "Medicaid Enhanced Payments for Illinois State-Employed
Physicians for April 1, 2002, Through June 30, 2004," (A-05-06-00042)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Enhanced Payments for
Illinois State-Employed Physicians for April 1, 2002, Through June 30, 2004," (A-05-06-00042)
July 5, 2007
Complete
Text of Report is available in PDF format (2.07 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Department of
Healthcare and Family Services (the State agency) made enhanced payments for
services provided by physicians employed by the University of Illinois at
Chicago College of Medicine (UIC) and the Southern Illinois University School of
Medicine (SIU) in accordance with the approved State plan amendment (SPA) and
Federal regulations.
The State agency generally made enhanced payments for
services provided by UIC and SIU physicians in accordance with its SPA and
Federal regulations.  However, the State agency overpaid the universities
$304,726 ($152,363 Federal share) due to a computer program error used to
calculate the enhanced payment for 8,844 claims within a portion of our audit
period.  The computer program error occurred on claims that had a third party
liability payment that exceeded the cost of services.  We recommended that the
State agency refund the overpayment of $152,363 to the Federal Government and
correct the computer program error that caused the overpayments and ensure that
claims with third party liability payments that exceed the cost of services do
not receive a standard Medicaid fee or an enhanced payment.  The State
agency
concurred with the findings and recommendations.